 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




INTERSTATE COMPACT ON ADOPTION

     AND MEDICAL ASSISTANCE





                    @ SE RVlCt3
              ~$+                 %’
                                   %’

         ~w                             JUNE    GIBBS BROWN
         :                              Inspector    General
         2
         ‘%
           ‘+% $
              ‘avd~~
               >
                                                 JUNE 1996
                                               OEI-02-95-00040   I
                          OFFICE OF INSPECTOR                   GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services’ (HHS) programs as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwidenetwork of audits, investigations,and inspectionsconductedby three OIG operating
components: the Office of Audit Services, the Office of Investigations, and the Office of Evaluation and
Inspections. The OIG also informs the Secretary of HHS of program and management problems and
recommends courses to correct them.

                              OFFICE OF AUDIT SERVICES

The OIG’SOffice of Audit Services (OAS)provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilitiesand are intendedto provide independentassessmentsof HHS programs and operations in
order to reduce waste, abuse, and mismanagementand to promote economy and efficiency throughout
the Department.

                             OFFICE OF INVESTIGATIONS

The OIG’SOffice of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigativeefforts of 01 lead to criminal convictions, administrative sanctions, or civil
moneypenalties. The 01 also oversees StateMedicaidfraud control units which investigateand prosecute
fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION                     AND INSPECTIONS

The OIG’SOffice of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations(called inspections)that focus on issues of concern to the Department, the Congress, and the
public. The findingsand recommendationscontainedin these inspectionreports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectivenessof departmental programs.
This report was prepared in the New York regional office under the direction of Alan S. Meyer, Ph.D.,
Regional Inspector General. Project staff included:

REGION 11                                                        HEADQUARTERS

Nancy Harrison, Project Leader                                  Tina Fuchs
Demetra Arapakos                                                W. Mark Krushat
Renee Dunn                                                      Dave Wright

For additional copies of this report, please contact the New York regional office at (212) 264-1998.
 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




INTERSTATE COMPACT ON ADOPTION
     AND MEDICAL ASSISTANCE
                EXECUTIVE                            SUMMARY

PURPOSE

To assess how membership in the Interstate Compact on Adoption and Medical Assistance
(ICAMA) affects States’ efforts to protect the interests of special needs adopted children who
move from one State to another.

BACKGROUND

Adopted Children with Special Needs

The Administration for Children and Families (ACF) has asked the Office of Inspector
General (OIG) to look at a number of issues regarding interstate compacts, including the
advantages to State membership in the Interstate Compact on Adoption and Medical
Assistance and how non-member States are handling cases of special needs adopted children.

The Adoption Assistance and Child Welfare Act established a federally aided adoption
assistance program under IV-E of the Social Security Act that provides contributions to State
subsidies given to parents who adopt special needs children. These children are entitled to
adoption assistance payments and medical assistance (Medicaid), both of which offset some
of the extra expense of raising a special needs child. If children are covered by IV-E and
move to another State, they must be issued a Medicaid card by the State to which they move.

Interstate Agreements

A State enters into adoption assistance agreements with adoptive parents which must contain
“provisions for the protection . . . of the interests of the child in cases where the adoptive
parents and child move to another State. ” A State may enter into an interstate compact or
use some other mechanism to fulfill this requirement. The States, however, are not required
to join a compact and no guidelines or definitions are offered for the other mechanisms they
may employ.

The Interstate Compact on Adoption and Medical Assistance (ICAMA) established a formal
mechanism to ensure that Title IV-E children continue to receive medical and other services
on an interstate basis, as envisioned under the Adoption Assistance Act. The compact has
the force of law within and among member States. Currently, 30 States are members of
ICAMA.

We gathered information from the ICAMA administrators in all 29 States that were members
of the compact and representatives from 21 non-member States in 1995. We also
interviewed selected advocacy groups, ACF staff, American Public Welfare Association
representatives, and a few adoptive parents to gain their insights on issues of IV-E children
moving.



                                                i
FINDINGS

ICAMA Membership Provides States with Significant Administrative Advantages in
Maintaining Medical Assistance for Adopted Children with Special Needs

Member States benefit from the following administrative advantages: active involvement in
assisting IV-E children, an accessible contact person, standard forms and instructions, the
ability to issue timely Medicaid cards, good coordination, and an active Secretariat. As a
result, virtually all member States are satisfied with the compact. In contrast, most non-
member States do not enjoy these benefits.

Despite the Advantages of Compact Membership, More Than Hay of the Non-Member
States See No Need to Join

Most non-member States are satisfied with their system and think it is easy for IV-E children
who move into their State to get a new Medicaid card. Many non-member States are
reluctant to join the compact. They feel the compact offers these children no additional
medical or financial benefits. Non-member States point to increased staff time and ICAMA
dues as disadvantages to joining.

Some non-member States nevertheless feel positively about the compact, noting possible
advantages of an improved or quicker process in handling IV-E cases and a contact person.
In fact, four non-member States are planning to join the compact and six more say it is
possible they will join in the future.

CONCLUSION

Overall, we conclude that compact membership is advantageous to States and families with

IV-E children. We recognize that it is each State’s prerogative to join the compact. We also

recognize that such considerations as a State’s size and organizational structure may

discourage the State from joining. However, even if a State elects not to join the compact, it

may still benefit by adopting some of the compact’s procedures, such as designating a contact

person to whom other States and family members can turn for information and assistance.

States that elect not to join might also consider using mechanisms for further educating

parents and local Medicaid workers about IV-E benefits and the obligations that States have

to IV-E children moving across State lines.


The ACF may want to inform all States of the administrative benefits of compact

membership and the resulting benefits to IV-E families. We suggest that ACF work with the

compact’s Secretariat and adoption advocacy groups to disseminate this information. We

believe that compact membership is worthwhile and encourage the States that are planning to

join to do so as expeditiously as possible.





                                                ii
COMMENTS

We received favorable comments from ACF on the draft report. They believe it will be a
useful tool for them to encourage State membership and to positively impact on States’
efforts to protect the interests of adopted children with special needs. The actual comments
received are included in Appendix B.




                                                ...
                                               111
                      TABLE                 OF          CONTENTS




EXECUTIVE        SUMMARY


INTRODUCTION             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


FINDINGS       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..4


 �    ICAMA Provides States with Significant Advantages . . . . . . . . . . . . . . . . . . . 4


 �    Non-member states see       No   Needto    Join   . . . . . . . . . . . .   . . . . . . .    . . . . .     10


CONCLUSION           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      . . . . . . . . .    11


APPENDICES         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    . . .     ..<   . . . . . .    . .


A: Population Data of Member and Non-member States . . . . . ,...                            . . . . . . .      A-1


     Map ofMember States . . . . . . . . . . . . . . . . . . . . . . . .          . . . .   . . . . . . . . A-4


B: Comments        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l

                             INTRODUCTION


PURPOSE

To assess how membership in the Interstate Compact on Adoption and Medical Assistance
(ICAMA) affects States’ efforts to protect the interests of special needs adopted children who
move from one State to another.

BACKGROUND

The Administration for Children and Families (ACF) has asked the Office of Inspector
General (OIG) to look at a number of issues regarding interstate compacts, including the
advantages to State membership in ICAMA and how non-member States are handling cases
of special needs adopted children.

The Adoption Assistance and Child Welfare Act

In 1980 Congress amended Title IV of the Social Security Act with the Adoption Assistance
and Child Welfare Act (P. L. 96-272). The Adoption Assistance Act established a federally
aided adoption assistance program under Title IV-E of the Social Security Act. It provides
Federal contributions to State subsidies given to parents who adopt special needs children.
Special needs children (hereafter referred to as “Title IV-E children”) are children who are
eligible for Aid to Families with Dependent Children or Supplemental Security Income and
who are defined by the State as having special needs. “Special needs” refers to factors that
make a child difficult to place for adoption, such as having emotional or behavioral
problems, being part of a large sibling group, being a member of a minority, having
developmental problems or having serious medical conditions. Title IV-E children are
entitled to adoption assistance payments and medical assistance (Medicaid), both of which
offset some of the extra expense of raising a special needs child.

In order for a State to receive Federal contributions it must enter into adoption assistance
agreements with the adoptive parents. A State that does so is called the adoption assistance
State. These written agreements must meet certain Federal requirements, such as specifying
the nature and amount of any adoption assistance payments and services to be provided. The
agreement must also contain “provisions for the protection . . . of the interests of the child in
cases where the adoptive parents and child move to another State while the agreement is
effective. ” A State may enter into an interstate compact or use some other mechanism to
fulfill this requirement. The Adoption Assistance Act directs the Secretary of Health and
Human Services to encourage and assist States to enter into interstate compacts so that the
interests of Title IV-E children are adequately protected if the child moves to another State.
The States, however, are not required to join a compact and no guidelines or definitions are
offered for the other mechanisms they may employ.

It is important that a child continue to receive adoption assistance payments and medical
assistance (Medicaid) when they move to a new State just as they would if they moved from


                                                1
one place to another within the same State. Continuation of the adoption assistance payments
is not a problem since the adoption assistance State (the State the child moves from) can
easily mail the payments to the child’s address in the new State (hereafter referred to as
“residence State”). Continuing medical assistance, however, is more complicated. It is
almost impossible to find health care providers who will accept another State’s Medicaid
card. Therefore, the child needs a new card issued in the new residence State as soon as
possible. Ideally, there should be no delay.

Interstate Compact on Adoption and Medical Assistance

In the absence of Federal guidelines, nine States, with ACF’S help, adopted the Interstate

Compact on Adoption and Medical Assistance (ICAMA) in 1986. The compact established a

formal mechanism to ensure that Title IV-E children continue to receive medical and other

services on an interstate basis, as envisioned under the Adoption and Assistance Act. The

compact has the force of law within and among member States. It provides uniform

procedures and forms to conduct interstate transactions. Each member State must designate a

compact administrator who is responsible for the operation of the compact. The

administrator processes ICAMA forms and serves as an information resource. Currently, 30

States are members of ICAMA. Appendix A contains population data of member and non-

member States.


The compact is administered by the Association of Administrators of the Interstate Compact

on Adoption and Medical Assistance (AAICAMA) under a cooperative agreement with ACF.

The American Public Welfare Association (APWA) acts as the compact’s Secretariat under a

subcontract with the AAICAMA. The Secretariat provides technical assistance to compact

members and helps handle interstate problems involving the provision of services and

benefits for interjurisdictional adoption cases falling under the compact,


Consolidated Omnibus Reconciliation Act

The Consolidated Omnibus Reconciliation Act (COBRA) of 1986 mandated that residence
States confer Medicaid eligibility to children who have Title IV-E adoption assistance
agreements with another State. This means that children covered by an adoption assistance
agreement in one State must be issued a Medicaid card by the State to which they move.
COBRA did not, however, provide interstate administrative guidance for this transfer
process. COBRA also gives States the option of providing Medicaid to children who are not
IV-E eligible but who are adopted pursuant to State-funded adoption subsidy programs and
meet certain criteria.

METHODOLOGY

We conducted telephone interviews in 1995 with the ICAMA administrators in all 29 States
that were then members. Texas has just recently joined the compact, bringing the total
membership up to 30 States. At the time of data collection, however, Texas was not a
member and therefore is treated as a non-member State in this report. We asked each
administrator about the process that takes place when Title IV-E children move into and out


                                             2

of his or her State. We also discussed the administrator’s experiences with ICAMA, the
advantages and disadvantages of being a compact member, and how the compact could be
improved.

In this inspection, States belonging to the compact are referred to as member States while
States not in the compact are called non-member States.

We also conducted telephone interviews with an adoption specialist, or other representative
from the State’s office responsible for youth and family services, from 21 of the 22 non-
member States, including Washington, D. C. One State refused to be interviewed. We
discussed what the States are doing to protect the interstate interests of Title IV-E children
and how those processes are working. We also asked the 21 non-member States why they
had not joined the compact and what they see as the compact’s advantages and disadvantages.

We asked each State to provide us with any written policies and procedures they use in
processing interstate cases. We developed a review sheet to evaluate the States’ written
policies and procedures to determine their clarity, thoroughness, and degree of detail. We
also asked for other supporting documentation. This included any cost-benefit analysis they
may have done regarding membership in the compact (no State had done any), any data they
may have on how many days it takes the State to issue a Medicaid card to incoming Title IV­
E children, and the numbers of IV-E children they have moving into or out of their State.
The APWA provided additional data on the numbers of IV-E children who have moved
across State lines. (See Appendix A).

We constructed an index of State involvement in IV-E cases using data from the telephone
interviews and written policies and procedures. This index was based on four key variables:
whether the State, at the State level, is generally aware that a IV-E child has moved into the
State; whether the State, at the State level, knows when a child moves out; whether the State
in some way notifies the family that they are IV-E and are entitled to medical assistance in
their new State; and whether the State or local level sends paperwork to the new State for
families moving out. A State earned one point for a positive action on each variable. For
instance, if a State usually sends the family’s adoption assistance agreement to the State the
family is moving to, the State would earn one point for that variable. Since there were four
variables, scores could range from O to 4 points.

Finally, we interviewed selected advocacy groups, ACF staff, an APWA representative, and
three parents who have adopted a total of ten IV-E children to gain their insights on issues of
IV-E children moving. The experiences of the parents interviewed include the four possible
moving scenarios: member State to member State; member State to non-member State; non-
member to member; and non-member to non-member.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                               3

                                    FINDINGS


ICAMA MEMBERSHIP PROVIDES STATES WITH SIGNIFICANT
ADMINISTRATIVE ADVANTAGES IN MAINTAINING MEDICAL                          ASSISTANCE
FOR ADOPTED CHILDREN WITH SPECIAL NEEDS

Member States benefit from the following administrative advantages in their efforts to
maintain IV-E children’s medical assistance: active involvement, a contact person, standard
forms and instructions, the ability to issue timely medical cards, good coordination, and an
active Secretariat. As a result, virtually all member States are satisfied with the compact.

Member States are More Actively Involved than Non-member States in Assisting IV-E
Children

Interviews with States and a review of member State procedures show that member States are
actively involved in ensuring that IV-E children maintain their medical assistance when they
move across State lines. The State’s compact administrator takes an active role whether the
IV-E child is moving out of or into his or her State. Most compact administrators report
spending less than two hours a week on compact duties. When a IV-E child moves out of a
member State, the administrator verifies the child’s IV-E status and sends the appropriate
paperwork to the new State of residence. When a IV-E child moves into a member State,
the administrator is usually notified and facilitates the issuing of new Medicaid cards. If a
IV-E child moves from one member State to another the transition can be completed by mail,
and the family does not have to go to any Medicaid offices in either State.

Non-member States, on the other hand, often do not know when a IV-E child leaves their
State. When they are aware a child is moving out, over half of the non-member States (11
of 21) advise the family to go to the Medicaid office in the new residence State to apply for a
Medicaid card, thus placing the responsibility for maintaining assistance on the family. In
five non-member States, when a IV-E child moves out, the local offices will notify their
State office, and one of the two offices will send some paperwork, such as a letter regarding
IV-E status, to the new residence State.

Two-thirds of the non-member States say they are usually unaware on a State level when a
IV-E child moves into their State, especially from other non-member States, because it is
handled at a local level. In many cases, the State may only become aware of the case if the
family or adoption assistance State calls with a complaint. Often the State office, when
aware a IV-E child is moving in, will refer the case to the local office. In many instances,
however, the family has to find their own way to the local office. Only three non-member
States say they will issue the Medicaid card and take care of the case at the State level.

The index of State involvement we have developed, as described in the Methodology, is
based on two indicators of active notification and two indicators of awareness at the State
level. State scores on the index show the contrast between active member States and much
less active non-member States. Based on one point for each indicator in which the State is


                                              4
actively involved, possible scores range from zero to four. We consider scores of three or
more to indicate relatively high involvement and scores of two or less to show relatively low
involvement. As Table 1 below shows, 93 percent of the member States score three or more
compared to only 29 percent of the non-member States. Conversely, 71 percent of the non-
member States score relatively low on the index while only four percent of member States
do. A major reason the non-member States score lower is that while most member States
(79 percent) usually handle IV-E cases at the State level, fewer non-member States do (33
percent).

                                          Table 1
                Scores on Index of Active State Involvement with IV-E Cases

       SCORE        I   MEMBER STATES           I    NON-MEMBER STATES         I   TOTAL      II
           4                 26 (90%)                       1 (5%)                    27

           3                  1 (3%)                       5 (24%)                    6

           2                  1 (3%)                       10 (48%)                   11
           1                     0                         4 (19%)                    4

           0                     0                          1 (5%)                     1

          nla                 1* (3%)                          o                       1
       TOTAL        ,
                          29 (100%)#                  21 (loo%)#               ,
                                                                                      50
  II                                            1                                             {1

       *One member State could not be scored due to lack of information
       # Percentages do not add up to 100 due to rounding

Handling IV-E cases at the local level creates more opportunity for problems and
inconsistency. One problem non-member States identify is that families have difficulty
finding the appropriate office to go to in their State, thereby delaying the process of getting a
new card. A few non-member States point out that in non-member States the office that
handles IV-E is not always located in the adoptions unit and, therefore, is more difficult to
track down.

Some member States say it is not uncommon for non-member States to advise a IV-E family
to go to a local Medicaid office in their residence State but not tell them the child has IV-E
status. One adoptive mother tells the story of going to the local office in her new residence
State, which is a non-member, and having to fill out a Medicaid application. She was told
that eligibility depended on income. The mother was sophisticated enough in IV-E matters to
know the case worker was mistaken. Once the supervisor was brought in, the case was
handled properly. Unfortunately, if a IV-E family is not familiar with the law, or is not
aware their child is IV-E, the child may not receive a new Medicaid card. One State tells a
story of a family that moved from a non-member State and lived in the new State for 2 years
before learning they could get Medicaid in the residence State. Another State recalls a case
of a IV-E child being in her State for 8 or 9 months before the family happened to visit a
local office and learned the child was eligible for Medicaid.


                                                5

Non-member States are more likely than member States to feel handling cases of IV-E
children moving is burden. Seven (33 percent) of the 21 non-member States say it is a
burden compared with 3 (10 percent) of the 29 member States. All but one of the non-
member States feeling burdened handle the IV-E cases on the local level.

In Contrast to Non-member States, Member States Have an Accessible Contact Person

The process for continuation of medical assistance is made easier, both for States and IV-E
children, by the existence of an ICAMA contact person in each member State. Along with
other compact duties, the compact administrator serves as the contact person whom States
and IV-E families can contact for information and assistance. A majority of member States
(18 of 29) say that having a contact person available to answer questions and provide
assistance makes the move easier for IV-E families and lessens the stress of the move. Some
non-member States (4 of 21) agree, saying IV-E children in their State would benefit from
having a contact person if the State joined ICAMA.

Most member States (24) believe that having a contact person is one of the biggest
advantages to compact membership in that it helps facilitate communication between States.
Many member States say that having a contact is also one of the reasons why they prefer to
work with member States over non-member States when dealing with IV-E children.

Many member States (12) consider not having a contact in non-member States a major
problem, one that could make a move more difficult for a IV-E family. Several member
States complain of spending many hours on the phone trying to track down the right person
to talk with about a IV-E case, especially in States that handle IV-E at the local level. This
was confirmed during this study when we often experienced problems finding the person
responsible for IV-E cases in non-member States. Reaching these people in member States,
in comparison, was much easier.

Member States Have Standard Forms, Instructions and Procedures, While Those Used by
Non-member States are Inconsistent

Standard forms and instructions facilitate a smooth administrative process when IV-E
children move between member States. All member States follow standard procedures and
use the same four ICAMA forms to process incoming or outgoing IV-E children. These
forms serve the following functions: to report on the IV-E child’s status; to take the place of
a Medicaid application in the residence State; to notify States and adoptive families that the
necessary information has been sent to the new residence State so Medicaid cards can be
issued; and to give notice to the adoption assistance State that a Medicaid case has been
opened in the new residence State. The ICAMA forms have clear guidelines for their
completion and distribution, and instructions for sending the appropriate supporting
documentation, such as the current adoption assistance agreement. The Association of
Compact Administrators and the Secretariat are currently working on further streamlining the
forms.




                                               6

While all member States use ICAMA forms, about half (14 of 29) have additional policies
and procedures to clarify the process in their State. Most of these policies and procedures
clearly detail the steps to be taken when a IV-E child moves into or out of the State.
Policies from 6 of the 14 member States are comprehensive with precise instructions.

About half of the non-member States (10 of 21) also have written policies and procedures.
Although most of the 10 outline the steps to follow when a IV-E child moves into or out of
the State, only half specify the documentation to expect from an adoption assistance State.
Three of the 10 States have comprehensive policies and procedures with precise instructions.
All the written policies and procedures we received from States verify the information we
were told in the telephone interviews.

Membership Helps States Issue Timely Medicaid Cards

Since member States recognize ICAMA forms as eligibility for Medicaid, the card can be
issued without delay when both States are members of the compact. When States do not use
standard forms and procedures it is more probable that the documentation the child brings to
the new residence State will be incomplete and the family will experience delays in getting a
new card in the new State, whether member or non-member. Fourteen member States say it
takes longer to issue cards to children from non-member States. They say the children
coming from these States often do not have proper documentation of IV-E status and getting
the documentation can be time-consuming, especially if there is no contact person in the
adoption assistance State. One member State reports that when a child comes without a copy
of the adoption assistance agreement it can take more than 6 months to get the necessary
documentation to issue a new card.

Five non-member States agree that not getting the proper documentation poses problems for
their State in issuing new cards. They also feel getting the documentation is burdensome.
Non-member States do not agree, however, that it generally takes longer to issue cards to
children coming from other non-member States. Almost all of them (19) say it takes the
same amount of time to issue cards to children coming from non-member States as it does
for children coming from member States. Five of these non-member States say that their
local offices issue cards, thereby making it difficult to say how long it takes. Only two non-
member States say it takes longer when they are dealing with a child from a non-member
State.

Most States have guidelines or requirements that they must issue Medicaid cards to those
eligible within a given timeframe, such as 1 month or 45 days. States do not keep data on
how long it takes to issue individual cards. Many States issue cards only at certain times of
the month. For instance, one State may issue cards on the 15th of every month so if
someone applies on the 8th and is deemed eligible, he or she may get the card in a week. If
that same person had applied on the 20th, he or she would have to wait until the 15th of the
following month to receive the card. All States report some way of accommodating an
emergency if the applicant cannot wait to get the card.




                                               7

Comparison of issuance time before and after membership in the compact is limited due to
the way cards are issued and the lack of systematic data. Of the 17 member States that could
compare, just over half (9) say it took longer for their State to issue a Medicaid card before
their State joined the compact than it does now. Eight member States think it takes the same
amount of time. The remaining 12 member States could not say how long it took to issue a
card before the compact.

Most member States (23) feel that, since they joined the compact, it has been easier for IV-E
children who move into their State to get a Medicaid card. The main reasons for this,
according to the States, is the improved administrative process and contact person. Three
notice no change and the remaining States could not offer an opinion. All member States
agree, however, that IV-E children benefit from the compact. They think it offers better
service to families, which is why most member States joined.

The majority of member States (18) say there are no problems issuing a new card to IV-E
children who move into their State. The problems they do see mostly involve insufficient
documentation from other States, usually non-members.

Coordination is Easier with Member States

Membership in ICAMA facilitates coordination among States. In contrast to non-member
States, when a IV-E child moves out of a member State, that member State will notify the
residence State the child is coming. Almost all (27) member States and 17 non-member
States report that when a IV-E child moves from a member State into theirs, they find out
from the other State’s compact administrator. Member States point out that they can begin
the necessary paperwork right away if they know a child is coming. This helps ensure no
lapse in assistance for the child. On the other hand, most member States say they usually
find out about children moving from a non-member State only when the family visits the
local office in the new State. Non-member States also say that they are usually unaware
when a IV-E child moves into their State from another non-member State. When they do
find out, it is through their local office or the other non-member State might call them.

Twenty-one member States believe the compact usually helps resolve problems between
States. The compact has the force of law in and among member States so these States can
turn to the compact and its standards when questions arise, which might happen when an
inexperienced compact administrator is learning the process.

Coordination is more difficult when a non-member State is involved in a move. Problems
between States are more likely to occur if one of those States is a non-member. While only
a few (4) non-member States complain of problems with member States, almost three times
as many (11) non-member States complain of problems with non-member States. The
contrast is even greater with member States: 4 member States report major problems with
other member States while 21 report major problems with non-member States. Problems
often involve the lack of a contact person and incomplete IV-E documentation.




                                              8

A majority of both member (24) and non-member States (12) prefer to work with member
States over non-member States. They give the following reasons: the ICAMA members are
easy to work with and are very helpful; member States have a contact person; member States
send the correct paperwork; and member States are more knowledgeable about IV-E. No
State, member or non-member, prefers to work with non-member States over member States.

An Active Secretariat is Another Compact Benefit

The compact’s Secretariat helps States to better serve IV-E children. All States that
volunteer an opinion, 21 members and 4 non-members, feel positively about the Secretariat.
According to these States, the Secretariat helps resolve compact issues, offers technical
assistance to member and non-member States, and disseminates information on a variety of
adoption matters in the form of issue briefs. States appreciate the Secretariat’s annual
conference that addresses many adoption issues. Member States, non-member States, child
welfare advocates, adoptive parents, and other concerned parties attend the conference and
are given the opportunity to learn and network.

Member States are Satisfied with Compact

Almost all member States are satisfied with the compact: 20 are very satisfied, while 8 are
somewhat satisfied and 1 State is neither satisfied nor dissatisfied. None are dissatisfied.
Member States cite many advantages to compact membership, such as an improved
administrative process when IV-E children move, information sharing and networking, and
better service for families. Most member States (20) say the compact has no disadvantages.
Six member States cite the annual dues as a disadvantage.

Membership does not present an administrative hardship for States. Most member States
(26) do not feel managing the compact is burdensome. The three member States that say it
is burdensome blame it on lengthy forms, which are currently being revised. Over half of
the member States (16) report spending 1 hour or less a week performing ICAMA duties.
Another five spend between 1 and 2 hours. The number of IV-E children in their State does
not seem to have an effect on the amount of time spent. Of those 23 member States with
data, 5 of the 6 with the largest IV-E population say they spend 1 hour or less on ICAMA.

Almost all member States (27) feel all States should be ICAMA members. When asked for
suggestions for improving the compact, 14 member States call for increased membership.
Another suggestion made by many is for all member States to elect the COBRA option and
grant Medicaid eligibility to non-IV-E special needs children. These children are deemed
“special needs” by their State, but since they are not IV-E, they are not covered by the
Adoption Assistance and Child Welfare Act and therefore not guaranteed Medicaid eligibility
when they move to another State. In many cases, member States have agreed to offer
eligibility to non-IV-E children who come from other States that will reciprocate and offer
eligibility to their non-IV-E cases. Some member States cite this reciprocity as another
compact advantage.




                                              9

DESPITE THE ADVANTAGES OF COMPACT MEMBERSHIP,                           MORE THAN HALF
OF THE NON-MEMBER STATES SEE NO NEED TO JOIN

Non-member States tend to be large, such as California, Florida, Illinois, New York, and
Ohio. (See Appendix A). Two-thirds of the non-member States handle interstate IV-E cases
at the local level. Only one-third handle them at the State level.

Most Non-member States are Satisfied with their System

More than half of the non-member States (12 of 21) say they experience no problems in
issuing a new Medicaid card. In general, non-member States (17) are satisfied with how
they are handling IV-E cases. Several could not offer any suggestions for improving their
system. A few suggest adding staff.

Most (18) non-member States think it is easy for IV-E children who move into their State to
get a new Medicaid card. Many of these States (8 of 18) cite a lack of complaints as
evidence. Others say it is easy because their State has a good process. Some non-member
States (four) concede that it is easy only if the family knows where to go and difficult if they
do not.

Many Non-member States are Reluctant to Join the Compact

When asked why they have not joined ICAMA, 12 States (57 percent) say they see no need
to become members because they are already handling their IV-E cases and they have no
problems issuing a new medical card. They feel the compact would not benefit IV-E
children. They say that, by law, IV-E children are eligible for Medicaid in their residence
State and the compact offers these children no additional medical or financial benefits. Some
of them feel that there are too few children involved to justify the possible increased
administrative costs. Others point to difficulty with their State legislature as an obstacle to
joining the compact. However, some of these same States do admit that membership might
make the IV-E process smoother.

Eight non-member States say a disadvantage to joining the compact is the amount of staff
time they feel is needed to administer the compact. A comparison of hours spent in both
member and non-member States, however, shows non-member States report they spend
roughly the same amount of hours handling IV-E cases as member States. Dues is another
concern among non-member States. ICAMA dues are $3000 a year, $1500 of which is
reimbursed by the Federal government.

Non-member States give a variety of incentives the compact would need to offer to get their
State to join, including staff, money, more services for children, or some other benefit that
would convince the decision makers in the State to join.




                                               10

However, a Few States Plan to Join and Others are Considering It

Some non-member States nevertheless feel positively about the compact. More than half (16)
of the non-member States note advantages to ICAMA. The most frequently mentioned
advantage is an improved or quicker process in handling IV-E cases. Another frequently
mentioned advantage is the contact person the compact requires. Some States say joining the
compact might improve information sharing, provide better service to children, and facilitate
getting the correct, complete paperwork. In fact, for these same reasons, four non-member
States are planning to join the compact and six more say it is possible they will join in the
future.

CONCLUSION

Overall, we conclude that compact membership is advantageous to States and families with

IV-E children. We recognize that it is each State’s prerogative to join the compact. We also

recognize that such considerations as a State’s size and organizational structure may

discourage the State from joining. However, even if a State elects not to join the compact, it

may still benefit by adopting some of the compact’s procedures, such as designating a contact

person to whom other States and family members can turn for information and assistance.

States that elect not to join might also consider using mechanisms for further educating

parents and local Medicaid workers about IV-E benefits and the obligations that States have

to IV-E children moving across State lines.


The ACF may want to inform all States of the administrative benefits of compact

membership and the resulting benefits to IV-E families. We suggest that ACF work with the

compact’s Secretariat and adoption advocacy groups to disseminate this information. We

believe that compact membership is worthwhile and encourage the States that are planning to

join to do so as expeditiously as possible.


COMMENTS

We received favorable comments from ACF on the draft report. They believe it will be a
useful tool for them to encourage State membership and to positively impact on States’
efforts to protect the interests of adopted children with special needs. The actual comments
received are included in Appendix B.




                                              11

                               APPENDIX                 A

                 Population   Data of Member and Non-member          States+


State                  Population        # of IV-E          # of IV-E          Total IV-E
(Member States            1990          children out        children in         adopted
are in bold)                            of State 1994       State 1994          children

Alabama                   4,040,587          25                197                222
Alaska                        550,043        96                215                311
Arizona                   3,665,228          107               721                828
Arkansas                  2,350,725           5                249                254
California               29,760,021           *                  *               13109
Colorado                  3,294,394          177               1127               1304
Connecticut               3,287,116           *                  *                  *

Delaware                      666,168        41                147                188
D.C.                          606,900         *                  *                  *

Florida                  12,937,926           *                  *               4026
Georgia                   6,478,216          116               922                1038
Hawaii                    1,108,229          35                 84                119
Idaho                     1,006,749          57                174                231
Illinois                 11,430,602         583                4076              4659
Indiana                   5,544,159           *                 *                 892
Iowa                      2,776,755           *                 *                  *

Kansas                    2,477,574           *                 *                  *

Kentucky                  3,685,296         231                845                1076
Louisiana                 4,219,973          50                1145               1195
Maine                     1,227,928           *                 *                  *

Maryland                  4,781,468           *                 *                  *

Massachusetts             6,016,425         355                 *                  *




                                          A-1

    State            Population     # of IV-E      # of IV-E    Total IV-E
    (Member States         1990   children out    children in    adopted
    are in bold)                  of State 1994   State 1994     children
    Michigan          9,295,297         *              *            *

    Minnesota         4,375,099       217            1053          1270
    Mississippi       2,573,216        20            220           240
    Missouri          5,117,073         *              *            *

    Montana             799,065         *              *            *

    Nebraska          1,578,385        97            456           553
    Nevada            1,201,833        64            133           197
    New Hampshire     1,109,252         *              *           325
    New Jersey        7,730,188       346            1891         2237
    New Mexico        1,515,069       159            650           809
    New York         17,990,455         *             *             *

    North Carolina    6,628,637         *             *             *

    North Dakota        638,800        27            116           143
    Ohio             10,847,115         *             *             *

    Oklahoma          3,145,585        69            611           680
I   Oregon            2,842,321       353            1503         1856
    Pennsylvania     11,881,643        *              *             *

    Rhode Island      1,003,464        82            506           588
&   South Carolina    3,486,703        50            716           766
,   South Dakota       696,004         98            321           419
    rennessee        4,877,185         50            723           773
    rexas            16,986,510       502           2921          3423
(   Utah              1,722,850        11
           363           374
    Vermont
1

                       562,758        40             360           400
    Virginia         6,187,358         *              *             *
1
    Washington       4,866,692         *              *             *




                                    A-2

 State                    Population
     #of IV-E
          #of IV-E       Total IV-E
 (Member States                 1990
   children out
       children in      adopted
 are in bold)
                          of State 1994
      State 1994       children

 West Virginia             1,793,477          32
               136             168

 Wisconsin                 4,891,769          100
             1609             1709

 Wyoming                     453,588           *
                *               83


+ Table is based on 1990 census data and State-reported data of IV-E children as of June,

1994

* Data not available




                                           A-3

                     MAP OF MEMBER   STATES




.6

     .       .
         .




                 A




                             A-4
APPENDIX   B




     B-1
{~
./
  ,	 Ibw9m,,
               %




 4
‘%,-
                   DEPAR~             OF HEALTH & HUMAN SERVIC=

                                                                            ADMINISmAmON FOR CHILDREN AND FAMILIES
                                                                            Office of the AssistantSecfetafy, Suite 600
                                                                            370 L’Enfat Promenade, S.W.
                                                                            WashiWfon, D.C. 20447



                   May 13,     1996


                   TO:	          June Gibbs Brown
                                 Inspector  General

                   FROM:         Mary Jo Bane
                                 Assistant    Secretary kT~----
                                    for Children      and Families

                   SUBJECT :     OIG Draft   Report:          !llnterState    compact      on   Adoption     and
                                 Medical   Assistance,?’          0EI-02-96-OO040


                   Congratulations          on a well done draft          report.    Your conclusion

                   that   “Interstate         Compact on Adoption         and Medical    Assistance

                   ntembershi.p      provides     states   with Significant       zidmi.ni,strative

                   advantages        in maintaining      medical     assistance     for title        IV-E

                   adopted      children      with special     needstl supports       our work to

                   encourage       States     to join the Compact.


                   Over the past three        years,      Children’s     Bureau staff   have worked

                   very closely      with the Compact secretariat              through a cooperative

                   agreement.       We have been very pleased            with the increase      in mexob=

                   States,    the excellent      rnateri.als     produced    to keep members

                   informed,     and the Secretariats demonstrated ability                 to resolve

                   problems     between   States     (both member and non-member)          that    impact

                   on services      for title     IV-E children       and their adoptive       families.


                    We have encouraged States to join the Compact through our
                    Regional Office staff and at meetings with the States. Your
                    published report will give us an excellent tool to use and
                    disseminate among member and non-member States to encourage
                    membership and to positively impact on their State’s efforts to
                    protect the interests of children with special needs and their
                    adoptive families when they move from one state to another.
